                                                          U.S. Department of Justice



                                                          United States Attorney
                                                          Eastern District of Arkansas


FOR IMMEDIATE RELEASE                       CONTACT:       Christopher R. Thyer
January 27, 2012                                           United States Attorney
                                                           501-340-2600


            FORMER ASH FLAT TAX RETURN PREPARERS SENTENCED
                        ON MULTIPLE CHARGES

        Little Rock - Christopher R. Thyer, United States Attorney for the Eastern District of
Arkansas, announced today that James Bruce Morris, age 66, and Karen Sue Morris, age 49, tax
return preparers who for several years operated B. Morris Ltd. in Ash Flat, Arkansas, were
sentenced today by U.S. District Judge Susan Webber Wright. James Morris was ordered to
serve 48 months in prison and his wife, Karen Morris, was sentenced to serve 24 months in
prison. Each was sentenced to 3 years of supervision following their terms of imprisonment.
The judge will issue an order of restitution in three weeks pertaining to both defendants. Both
Morrises were prohibited from engaging in tax preparation business as part of the sentence.
Judge Wright ordered both to report to the Bureau of Prisons by noon on May 7, 2012.

        On April 26, 2011, the Morrises were convicted of 44 charges, which included theft of
funds from the Social Security Administration and the Veterans Administration stemming from
Mr. Morris concealing his work and earnings from his business in order to qualify for benefits;
defrauding the Department of Education regarding false FAFSA applications; and filing false tax
returns for themselves and their clients in which income was under-reported and deductions were
overstated and in some cases in which the Earned Income Tax Credit was fraudulently received.

        This investigation was conducted by agents from the Internal Revenue Service-Criminal
Investigation, the Social Security Administration Office of Inspector General, the Veterans
Administration Office of Inspector General, and the Department of Education Office of Inspector
General.

                                             ###
